NRC: OIG-99A-15 - Review of NRC's Operator Licensing Program
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home
>
NRC Library
>
Document Collections
>
Inspector General
Reports
>
2000
> OIG-99A-15
OIG-99A-15 - Review of NRC's Operator Licensing Program
[PDF Version - 87 KB ]
Report Synopsis
The U.S. Nuclear Regulatory Commission (NRC) carries out its mission through a licensing and regulatory system comprising several activities.  One of these activities involves licensing the operators of civilian nuclear reactors.   NRC is responsible for licensing issues and regulatory policy concerning reactor operators, including the initial licensing and requalification examinations.
Title 10, Code of Federal
Regulations, Part 55, Operators' Licenses, provides that applicants
for reactor and senior reactor licenses pass a written examination and an operating
test. NRC license examiners have historically prepared initial operator licensing
examinations. During 1999, NRC amended Part 55 by adding a new section that
allows facility licensees to develop and submit proposed initial examinations
for NRC review and approval.
The overall objective of this review was to determine whether NRC effectively exercises its oversight to ensure that facility licensees implement initial operator licensing testing programs in accordance with established standards for power reactors. As facility licensees voluntarily take on more responsibility for administering initial operator licensing examinations, NRC will need continued vigilance in licensing the operators of civilian nuclear reactors.  We found that NRC has criteria to exercise its discretionary authority to administer examinations, and the Agency continues to actively oversee the operator licensing process.  We believe NRC's pilot program examinations and inspections support the decision to allow licensees to voluntarily prepare and administer initial examinations.  We also found that licenses for power reactor operators were renewed as required in Regions II and IV, and there were no backlogs.
Controlling security and integrity of the operator licensing examinations is
vital to ensure the credibility and reliability of the testing programs. This
is evidenced by the requirement that all personnel who receive detailed knowledge
of any portion of the NRC licensing examination acknowledge their responsibilities
by reading and signing an Examination Security Agreement. Because the
Office of the Inspector General previously received concerns about examination
security, we also reviewed the security comments contained in NRC examination
reports. We found that security measures were not consistently addressed. Our
report provides two recommendations for improvement.
Introduction
The U.S. Nuclear Regulatory Commission (NRC) carries out its mission through a licensing and regulatory system comprising several activities.  One of these activities involves licensing(1) the operators of civilian nuclear reactors.  NRC is responsible for licensing issues and regulatory policy concerning reactor operators, including the initial licensing and requalification examinations.  During 1990, the Office of the Inspector General (OIG) evaluated NRC's program for licensing reactor operators.(2) We initiated the 1990 review because of revisions in the program.  The OIG report indicated that then recent revisions to the program had a positive impact on NRC's regulation of the operator licensing area.
We performed this current review because of recent program changes which allow
licensees to prepare and administer initial operator licensing examinations.
The specific objectives of this review were to determine (1) under what circumstances
and criteria will NRC exercise its discretion and reject a licensee's determination
to prepare, proctor, and grade the initial written examinations and prepare
the operating tests, (2) if NRC's pilot program(3) results support the decision to implement a new examination process for licensees
on a voluntary basis, and (3) if licenses for power reactor operators are renewed
as required. Because OIG previously received concerns about examination security,
we also reviewed the security comments contained in NRC examination reports.
Appendix I contains a detailed description of our objective, scope, and methodology.
Background
Based on Section
107 of the Atomic Energy Act of 1954 ,
as amended, and Section
202 of the Energy Reorganization Act of 1974 ,
as amended, NRC licenses reactor operators and senior reactor operators. Title
10, Part 55, Code of Federal Regulations (10
CFR Part 55), titled Operators' Licenses, requires that applicants
for reactor and senior reactor operator licenses pass a written examination
and an operating test. NRC license examiners have historically prepared the
initial operator licensing examinations using facility licensee provided reference
materials. During 1999, NRC amended Part 55 by adding a new section that allows
facility licensees to voluntarily develop and submit proposed initial examinations
for NRC review and approval. This amendment was implemented based on the results
of facility licensees developing initial operator licensing examinations during
NRC's pilot program.
Specifically, facility licensees may now elect to (1) prepare, proctor, and
grade the required written examinations, and (2) prepare the required operating
tests that NRC uses to evaluate the competence of individuals applying for operator
licenses. Licensees that elect to prepare examinations (1) must do so in accordance
with NRC operator licensing examination standards and requirements for power
reactors, (2) must establish, implement, and maintain procedures to control
examination security and integrity of testing programs,(4) and (3) must submit each written examination and operating test to NRC for review
and approval. NRC will continue to oversee the initial operator licensing examination
process. Finally, 10
CFR 55.40 contains a safety net provision which allows NRC to reserve the
right to prepare the examinations and tests and to exercise its [NRC's] discretion
to reject a facility licensee's determination to prepare, proctor, and grade
the written examinations and prepare the operating tests.
Results of Audit
We found that NRC has criteria to exercise its discretionary authority to reject a licensee's determination to prepare, proctor, and grade the written examinations and prepare the operating tests.  Although NRC has not exercised this authority, the Agency can use this discretion whenever the staff loses confidence in the licensee's ability to conduct examinations, especially when there are significant allegations that an examination has been compromised.  The Agency also conducts periodic, on-site inspections, supplemented by NRC's requalification  examinations at facilities where NRC believes that "ineffective training is causing operators to commit errors."  NRC will prepare initial examinations upon request by licensees and retains the authority to develop examinations on a case-by-case basis.  Finally, NRC Headquarters (HQ) conducts regional office visits to review the operator licensing functions at the regions.
We believe NRC's pilot program examinations and inspections support the decision to allow licensees to voluntarily prepare and administer initial examinations.  We also found that licenses for power reactor operators were renewed as required in Regions II and IV, and there were no backlogs.
During our review of the pilot program examinations, we found that examination security was a vital component of this process.  NRC stresses this importance by requiring that all personnel who will receive detailed knowledge of any portion of an NRC licensing examination, acknowledge their responsibility to maintain examination integrity by reading and signing an Examination Security Agreement.  As a result, we reviewed NRC examination reports to determine if security compromises were evident.  We found that security comments were not consistently documented in these reports.
Inconsistent Reporting of Security Measures Lessens the Value of Regional Examination Reports
Because OIG previously received concerns about examination security, we also reviewed the security comments contained in NRC examination reports.  Our review found that examination security measures were not consistently documented by inspectors in regional examination reports.   Existing standards and guidance for administering initial and requalification examinations in the "Operator Licensing Examination Standards for Power Reactors,"NUREG-1021, Revision 8,(5) and the NRC Inspection Manual (Inspection Procedure 71001), both provide for the review of examination security.(6) However, we found that because of inconsistent reporting, it was not always possible to know if security measures were reviewed, or whether security was determined to be acceptable with no issues.  Some reports discussed security with findings, some had no findings, and in other cases security was not mentioned at all.  Because security is not consistently addressed, we believe the value of these management reports is reduced.
In accordance with 10 CFR 55.49, licensees and applicants shall not engage in any activity that compromises the integrity of any application, test, or examination required by 10 CFR 55. 10 CFR 55.40 requires licensees that elect to prepare their own examinations to establish, implement, and maintain procedures to control examination security and integrity.  NRC examiners monitor and ensure the integrity of the examination process.  If they perceive that a compromise has occurred, they must immediately report it to the responsible regional supervisor so that necessary actions can be taken.
Within 30-45 days after an operator licensing examination is administered, the applicable NRC Region prepares an examination report, which contains an analysis of examination effectiveness, and documents the examination results to the facility licensee and HQ. NRC Inspection Manual Chapter 0610, Revised, provides guidance on inspection/examination report content, format, and style.  The Manual provides that reports clearly communicate significant results to interested parties and provide conclusions about the effectiveness of the programs or activities inspected.  All NRC inspectors are required to prepare inspection reports in accordance with this Manual.  Also, inspectors have the primary responsibility for ensuring that observations and findings are accurately reported.
The Manual also provides that report conclusions should be logically drawn and supported by observations and findings that are consistent with NRC policies and requirements.  The most basic results of an inspection are the facts an inspector gathers through watching work activities, interviewing licensee employees, reviewing records, and other inspection methods.  Inspectors are expected to rely on their own training and insight to make judgments about which issues are worth pursuing and which are not.
OIG reviewed Fiscal Year (FY) 1998 regional examination reports and discussed FY 1999 examination report content with regional officials.  Our purpose was to evaluate (1) facility licensees' continuing progress in preparing and administering initial written examinations and preparing operating tests in accordance with 10 CFR 55, and (2) the consistency of documenting security measures in regional examination reports.  Our review of 38 of 56 examination reports for FY 1998 found that only 6 contained any inspectors' observations, comments, or analysis about examination security measures.  For the reports with no comments, we could not determine if security measures were, in fact, reviewed or whether security was evaluated as acceptable with no comments being reported.
We discussed this matter with Agency officials, who assured us that examination security measures are a high priority.  Further, if nothing is reported on these matters, management believes there were no issues to report.  However, they agreed that examination security observations, comments, or analysis should be reported as a standard feature in all regional examination reports.
Although our review of examination reports focused on testing programs and
security issues, there may be other areas for which NRC management may need
documented information related to an examination issue. We believe that documenting
other issues (as determined by management) would result in examination reports
of a greater value for assessing the effectiveness of a licensee's operator
licensing program.
Conclusion
As licensees take on more responsibility for administering initial operator licensing examinations, NRC will need continued vigilance in licensing the operators of civilian nuclear reactors.  NRC has criteria to exercise its discretionary authority to administer operator licensing examinations and continues to actively oversee the process.  We believe NRC's pilot program results support the decision to allow licensees to voluntarily prepare and administer initial examinations.  Also, we found that licenses for power reactor operators were renewed as required in Regions II and IV, and there were no backlogs.
Controlling security and integrity of the operator licensing examinations is vital because the testing programs evaluate the competence of individuals applying for operator licenses.  However, we found that security measures were not consistently addressed.
We recognize that the Inspection Manual does not provide standardized guidance
as to what should be reported, and the Agency relies on inspectors to make judgments
about issues to be addressed. Although our review only disclosed inconsistent
reporting of security, it is possible that other operator licensing examination
areas may require increased emphasis in the examination reports. We believe
that consistent reporting of examination security measures (and possibly other
areas) would make the reports more valuable to NRC management. Our report provides
two recommendations for improvement.
Recommendations
To ensure that NRC properly evaluates the security and integrity of a facility licensee's examination program, we recommend that the Executive Director for Operations direct the following concerning NRC examination reports:
1.  Include a section in the examination reports with inspectors' observations, comments, or analysis on operator licensing examination security and integrity.  This would include both the content and physical security of examinations.
2.  Determine the potential need for consistent reporting of other areas within examination reports that may be vital to evaluating the adequacy of a licensee's examination program.
Oig Comments on Agency Response
On May 12, 2000, the Deputy Executive Director for Reactor Programs responded
to our draft report. His response is included as Appendix II to this report.
He agreed with our recommendations and provided time frames for planned corrective
action. We believe those actions will address the intent of our recommendations.
We have made the wording change suggested by the Deputy Executive Director.
Appendix I:  Review of NRC's Operator Licensing Program
OBJECTIVE, SCOPE, AND METHODOLOGY
The overall objective of this review was to determine whether the U.S. Nuclear Regulatory Commission (NRC) effectively exercises its oversight to ensure that facility licensees implement initial operator licensing testing programs in accordance with established standards for power reactors.  To accomplish our overall objective, we developed sub-objectives which included determining (1) the circumstances and criteria under which NRC would exercise its discretion and reject a licensee's determination to prepare, proctor, and grade the written initial examinations and prepare the operating tests,  (2) if NRC's pilot program results support the decision to implement a new examination process for licensees on a voluntary basis, and (3) if licenses for power reactor operators are renewed as required.
We examined the methods and procedures NRC Headquarters and Regions rely on to ensure that the operator licensing program functions effectively.  Our methodology included a review of prior Office of the Inspector General work, an analysis of all pertinent regulations and NRC guidance, including the pilot program, which supported proposed changes to the program (new examination process on a voluntary basis).  We also reviewed the "Operator Licensing Examination Standards for Power Reactors," NUREG-1021, Revision 8, NRC Inspection Procedures, and Title 10, Code of Federal Regulations, Part 55.
To determine the adequacy of controls within the license renewal application
process, we visited Regions II and IV and selected a statistical sample of their 10 CFR Part 55 docket
folders.(7) We interviewed staff in the Office
of Nuclear Reactor Regulation, other NRC offices, Regions II and IV, and the
Nuclear Energy Institute. We reviewed related management controls and conducted
our audit from August to October 1999 and January to February 2000 in accordance
with generally accepted Government auditing standards.
Appendix II:  Review of NRC's Operator Licensing Program
AGENCY RESPONSE TO DRAFT REPORT
MEMORANDUM TO:
S. Russell Irish, Acting Assistant
Inspector General for Audits
FROM:
Frank J. Miraglia, Jr.,
Deputy Executive Director for Reactor Programs
SUBJECT:
COMMENTS ON DRAFT AUDIT REPORT --
REVIEW OF NRC'S OPERATOR LICENSING PROGRAM
This responds to your memorandum of April 25, 2000, which forwarded the subject audit report (OIG-99A-15) for staff review and comment.  We value your independent assessment of the operator licensing program and appreciate the opportunity to offer the following comments:
1. With regard to Recommendation 1, the staff agrees that it would be beneficial to include a discussion of examination security in every examination report. ES-201 of Revision 8 of NUREG-1021, "Operator Licensing Examination Standards for Power Reactors," already requires examiners to review the facility licensees' security procedures, brief the facility contact on the NRC's examination security requirements and guidelines, monitor the integrity of the examination process, and immediately report any potential compromises to their supervisors.  In light of the importance that the NRC has placed on examination security, it makes sense that this issue should also be addressed in the examination reports.
We believe that the most efficient way to implement this recommendation will be to briefly describe, within the "Scope" section of the examination report, those security items and activities that were inspected.  In accordance with Section 06.06.a of NRC Manual Chapter 0610 (as revised on 4/26/00), this description should be complete, factual, and concise, to aid the reader in putting any findings into context.  The "Findings" section of the report will follow up with a detailed discussion of the salient security observations and findings or a simple statement that no findings were identified during the examination.  The staff plans to incorporate this clarified guidance in Supplement 1 to Revision 8 of NUREG-1021, which is currently available for public comment and will be issued in final form later this year.
2. With regard to Recommendation 2, the staff agrees that consistent reporting of issues in the examination reports is important for evaluating and maintaining the adequacy of facility licensees' examination programs.  Pursuant to that goal, draft Supplement 1 to Revision 8 of NUREG-1021 has proposed to clarify Section E.3 of ES-501, which addresses the preparation of examination reports, by establishing specific thresholds for evaluating the adequacy of facility-prepared licensing examinations.  The staff will consider the need for further clarification in this area before issuing final Supplement 1 later this year.
3. One additional comment and suggestion is provided regarding the first paragraph
in the "Results of Audit" section of the report. The sentence which states that
"[t]he Agency also conducts periodic, on-site inspections, supplemented by NRC's
annual examinations at facilities where NRC believes that 'ineffective training
is causing operators to commit errors'" appears to be inaccurate, in that the
NRC does not conduct annual examinations at facilities having ineffective programs.
We suggest that you consider replacing "annual" with "requalification," which
will make this a true statement, consistent with Section B of ES-601 of Revision
8 of NUREG-1021. Thank you for considering the staff's comments regarding your draft report.
Please contact Mr. Glenn Tracy, Chief of the Operator Licensing, Human Performance,
and Plant Support Branch if you have any questions regarding these issues.
Appendix III:  Review of NRC's Operator Licensing Program
Appendix IV:  Review of NRC's Operator Licensing Program
Major Contributors to this Report
Anthony C. Lipuma
Team Leader
Michael J. Steinberg
Senior Auditor
Appendix V:  Review of NRC's Operator Licensing Program
Office of the Inspector General Products
Investigative
1. INVESTIGATIVE REPORT - WHITE COVER
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated.  Investigative reports do not recommend disciplinary action against individual employees. Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions.  Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted.  The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2. EVENT INQUIRY - GREEN COVER
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct.  These reports identify institutional weaknesses that led to or allowed a problem to occur.  The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3. MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate correction of problems and to avoid similar issues in the future.  Agency tracking of recommendations is not required.
Audit
4. AUDIT REPORT - BLUE COVER
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity.  Audits follow a defined procedure that allows for agency review and comment on draft audit reports.  The audit results are also reported in the OIG's "Semiannual Report" to the Congress.  Tracking of audit report recommendations and agency response is required.
5. SPECIAL EVALUATION REPORT - BURGUNDY COVER
A Special Evaluation Report documents the results of short-term, limited assessments.  It provides an initial, quick response to a question or issue, and data to determine whether an in-depth independent audit should be planned.  Agency tracking of recommendations is not required.
Regulatory
6. REGULATORY COMMENTARY - BROWN COVER
Regulatory Commentary is the review of existing and proposed legislation, regulations,
and policies so as to assist the agency in preventing and detecting fraud, waste,
and abuse in programs and operations. Commentaries cite the IG Act as authority
for the review, state the specific law, regulation or policy examined, pertinent
background information considered and identifies OIG concerns, observations,
and objections. Significant observations regarding action or inaction by the
agency are reported in the OIG Semiannual Report to Congress. Each report indicates
whether a response is required.
1. As used in this report, whenever the terms licensing, examinations, and tests are used, these always refer to actions associated with operator licensing only, not to a license authorizing the operation of a civilian nuclear power reactor.
2. Review of NRC's Operator Licensing Program, OIG 89A-15, May 25, 1990.
3. As part of NRC's voluntary pilot program, from October 1995 - April 1996, NRC reviewed and approved 22 operator licensing examinations.  This program allowed the facility licensees their first opportunity to prepare an examination under NRC's initial operator licensing examination process.
4. This includes the requirement that personnel who will receive detailed knowledge of the NRC licensing examination, acknowledge their responsibility to maintain examination security by reading and signing an Examination Security Agreement.
5. These standards were developed to assist NRC examiners and facility licensees in understanding the processes associated with initial and requalification examinations and to ensure equitable and consistent administration of examinations for all applicants.
6. NRC and facility licensee personnel must be attentive to examination security measures to ensure compliance with 10 CFR 55.
7. Term derived from 10 CFR Part 55. File contains all relevant
documentation necessary for operator license application decisions and maintenance.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees